HHS/OIG, Audit -"Audit of the Office of Inspector General Excluded Providers in Georgia,"(A-04-01-01004)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Office of Inspector General Excluded Providers in Georgia," (A-04-01-01004)
January 15, 2002
Complete
Text of Report is available in PDF format (464 Kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of an Office of Inspector General (OIG), Office of Audit Services
audit made to determine if the Georgia Medicaid Program was appropriately preventing providers that have been excluded
from the Medicare and Medicaid programs by the OIG from being enrolled and paid by the Georgia Medicaid program.  Our
review indicated that the Georgia Medicaid Program made payments of $41,245 ($23,132 Federal share) to excluded providers
during Calendar Year 1999.  These improper payments occurred because the State did not have an adequate mechanism
in place to prevent excluded providers from participating in the Medicaid program.  We recommended that these improper
payments be rebooked on the States Quarterly Expenditure Report as recoveries, that the State take steps to prevent
excluded providers from participating in the Georgia Medicaid program, and that the State terminate those excluded providers
who are currently enrolled.